No. 20- 6679

 

 

In the

Supreme Court of the united States

LARRY DORTLEY,

Petitioner,

STATE OF FLORIDA,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME TO FILE BRIEF IN
OPPOISTION TO A PETITION FOR A WRIT OF CERTIORARI TO THE
FIRST DISTRICT COURT OF APPEAL

DIRECTED TO THE HONORABLE CLARENCE THOMAS,
ASSOCIATE JUSTICE OF THE SUPREME COURT OF THE UNITED STATES
AND CIRCUIT JUSTICE FOR THE ELEVENTH CIRCUIT

ASHLEY MOODY
Attorney General of Florida

TRISHA MEGGS PATE*
Bureau Chief
Tallahassee Criminal Appeals

OFFICE OF THE ATTORNEY
GENERAL

The Capitol, PL-01

Tallahassee, Florida 32399-1050
Phone: (850) 414-3603
Trisha.pate@myfloridalegal.com

*Counsel of Record for Applicant

February 19, 2021

 
APPLICATION FOR AN EXTENSION OF TIME TO BRIEF IN OPPOSITION
TOA PETITION FOR A WRIT OF CERTIORARI

To the Honorable Clarence Thomas, Associate Justice of the Supreme
Court of the United States, as Circuit Justice for the United States Court of
Appeals for the Eleventh Circuit:

Respondent, the State of Florida, respectfully requests an extension of 30 days
for the State to file its brief in opposition in this non-capital case. The brief in
opposition is currently due on Monday, March 1, 2021. See S. Ct. R. 13.1, 13.3. By
operation of Supreme Court Rule 30.1, a 30-day extension would make a petition for

a writ of certiorari due on Wednesday, March 31, 2021.
CONCLUSION

The State of Florida respectfully requests that the Court extend the time

within which to file its brief in opposition until March 31, 2021.

Respectfully submitted,

ASHLEY Moopy

 

Appeals
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
The Capitol — PLO1

Tallahassee, Florida 32399-1050
Phone: (850) 414-3603
Trisha.pate@myfloridalegal.com

*Counsel of Record
